<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 117-9]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-9

                            BUSINESS MEETING

=======================================================================

                                 MEETING

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-326 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 9, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3

                              LEGISLATION

Nomination Reference and Report, PN78-16, Michael Stanley Regan, 
  of North Carolina, to be Administrator of the Environmental 
  Protection Agency..............................................    10
S. Res. 49, Authorizing expenditures by the Committee on 
  Environment and Public Works...................................    11
Rules of Procedure for the Committee on Environment and Public 
  Works..........................................................    16

 
                            BUSINESS MEETING

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 106, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Sanders, 
Whitehouse, Merkley, Markey, Duckworth, Stabenow, Kelly, 
Padilla, Inhofe, Cramer, Lummis, Boozman, Wicker, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I call this business meeting to order.
    Welcome, one and all. I want to thank our staffs for your 
work in helping to bring us to this day. I want to thank 
Michael Regan for his willingness to serve in this capacity and 
for his family's willingness to share him with all of us.
    Today we will be considering his nomination to serve as 
Administrator of the EPA. We will also be considering today our 
Committee's funding resolution and Committee rules, which we 
have worked out with Senator Capito and her staff.
    Thank you very much.
    Before we get started, I just want to begin by welcoming, 
they are not all here, but I am going to go ahead and welcome 
each of the new members of our Committee. Those new members 
include Senator Lindsey Graham of South Carolina, Senator Mark 
Kelly of Arizona, Senator Cynthia Lummis of Wyoming, Senator 
Alex Padilla of California, and Senator Debbie Stabenow of 
Michigan. We welcome one and all.
    Debbie and I came to the Senate together in 2001. Michigan 
State, Ohio State, you would think we would be on different 
wavelengths, but we have been partners on a lot of stuff.
    I have enjoyed working with you and your leadership over in 
Ag, and we welcome you here today to this Committee.
    Senator Capito and I have agreed that we will begin voting 
promptly at 10:15 or as soon as we have established a quorum. 
At that time, we will hit the pause button with respect to 
members' statements and proceed straight to the items on our 
agenda. I will be happy to recognize any member who still 
wishes to speak after the voting concludes.
    Now, let's turn to the business at hand. I want to begin by 
saying a few words about Michael Regan. As I noted during our 
hearing last week, I believe he is the right person to lead the 
EPA during this critical time in our Nation's history. He is a 
man of deep faith who believes, as we all do, that we have a 
moral obligation to be good stewards of this planet on which we 
live together.
    I believe that Michael Regan is someone who can help unite 
us in common purpose. That is what he did in North Carolina. As 
an honest and thoughtful public servant, he brought people 
together to find solutions to some of the Tarheel State's most 
pressing environmental challenges. I believe he is fully 
capable of doing that again as EPA Administrator, working with 
all of us to address climate change and protect our air, our 
water, our natural resources, while helping to create good 
paying jobs for the American people and strengthening our 
economy. He is going to make sure that all of our communities 
and neighbors can be part of that progress.
    I also want to speak briefly about the other two items on 
our agenda, the Committee's funding resolution as well as the 
rules that govern our Committee's conduct. The Senate has only 
experience an evenly divided Senate three times before in our 
history, one in 1881, again in 1953, and again when Senator 
Stabenow and I were rookies in the Senate in 2001.
    Our Committee's funding resolution and rules reflect the 
equal representation of the parties on EPW, are consistent with 
Senate Resolution 27, as agreed to by Senators Schumer and 
McConnell.
    I want to personally thank Senator Capito, along with the 
members of the Committee's minority staff, for working with the 
members of the majority staff and with me to reach a reasonable 
agreement in a very timely manner.
    For the new members who have joined us, we have a history 
on this Committee of working across the aisle. So I am not 
surprised that we are able to reach agreement on the rules and 
on the Committee's funding that is consistent with our 2001 
precedent so early in this Congress.
    As we have done in the past, we will revisit our rules and 
budget, should a balance of power shift later on in the Senate.
    Let me also take a moment to share with our members this 
morning that we are taking important action today with respect 
to our Subcommittees, at least the naming of our Subcommittees. 
We are renaming two of them, as most of you know.
    We are adding the word ``climate'' back into Clean Air, 
Climate, and Nuclear Safety Subcommittee. We are also adding 
the words ``chemical safety and environmental justice'' to our 
Superfund Subcommittee name, which will become the Subcommittee 
on Chemical Safety, Waste Management, Environmental Justice, 
and Regulatory Oversight.
    These changes are an important reflection of the direction 
our Committee will take in 2021 as we work together to address 
some of the biggest challenges of our day. Those challenges 
include finding real solutions to climate change and to create 
and protect good paying jobs. They also include ensuring that 
we keep the Golden Rule in mind when we develop new laws or 
modify existing ones, so that all communities, and that 
includes communities of color and low income communities, along 
with the rural and urban communities, receive just and equal 
treatment under the law that we craft.
    With that said, let me now recognize our Ranking Member, 
Senator Capito, for any comments that she might wish to make 
this morning.
    I also want to say, I think we set a record a week or so 
ago when we had a hearing. We actually had to, in the course of 
the hearing, John Barrasso started off as the Chair, he handed 
it off to Shelley, and about 20 minutes before the end of our 
hearing, the Senate adopted an organizing resolution to make me 
the Committee Chair. I think that call that a troika, or 
something like that.
    [Laughter.]
    Senator Carper. You did a great job, and I am delighted to 
be sitting next to you. Thank you.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. Thank you, Senator 
Carper. Thank you for my hour and a half of fame as the Chair 
of this Committee. I enjoyed it; I must admit.
    But congratulations to you on your new role. I know you 
will be great. We have already had a great relationship anyway. 
But I think that it bodes well for the future of the Committee. 
We have talked more than several times, and we will continue 
that, obviously, every week, and hopefully more frequently than 
that.
    I also join you in welcoming our five new members. I am 
very grateful to have Senator Stabenow, Senator Kelly, and 
Senator Padilla, who I actually haven't met yet, so I have to 
get down there and get to know you a lot better. But welcome.
    Then on the Republican side, Senator Graham, who is not 
here, who is very interested in looking at issues particularly 
pertaining to nuclear energy and the State highway system and 
ports. He has expressed that interest.
    Also my former House colleague, Senator Cynthia Lummis, who 
will be filling the shoes of Senator Barrasso on this 
Committee. Her great work at the Natural Resources Committee in 
the House is very, very much appreciated, and her wealth of 
knowledge. So I look forward to seeing how we move forward.
    So now on to today's business. I am going to flip the way I 
am speaking, just to make it interesting, I hope. The Committee 
rules and budget we will adopt today give us the opportunity to 
operate in a balanced and a bipartisan way. We really didn't 
have any problems that I was made aware of in terms of trying 
to figure out the best way to develop the rules that are 
informed by precedent.
    Mr. Chairman, I thank you and your staff, your very able 
staff, for working, and mine as well, we have a split 
Committee, as you noted. The last time we had that split, as 
you noted as well, was in 2001.
    Consistent with 2001, both parties will have an equal 
number of non-Federal witnesses at each hearing. Chairman 
Carper and I will evenly balance the interests of the two 
parties in setting hearing topics and markup agendas.
    The rules will likely need to be revisited, and Senator 
Carper said this in his statement, but we are saying it twice 
for emphasis, when we cease to have an equally divided Senate, 
just as the Committee did in July 2001, once the 50-50 split 
ended.
    Today we also consider our Committee's proposed budget, 
which includes a modest increase from last Congress for COLAs, 
oversight activities, and to pay our Committee interns, which I 
think most of us in our personal offices are already doing 
that.
    I am happy to know that we are going to be doing that here 
in the Committee. It makes a whole lot of sense, and I think it 
spreads the opportunity to a lot more people. It represents a 
reasonable request that will provide the resources we need to 
do the Committee's important work.
    I support adoption of the Committee rules and of the 
Committee budget.
    Finally, we are also here to consider Michael Regan's 
nomination to be the Administrator at the Environmental 
Protection Agency. I appreciate the several conversations that 
I have had with Secretary Regan. He has been very open and 
forthright in reaching out, I think, to all of us. I 
particularly am grateful for that.
    As Senators Burr and Tillis noted in their introduction, 
Secretary Regan has been an accessible regulator to the people 
of North Carolina. That deserves praise.
    As an individual, he is absolutely the type of person that 
I would like to see leading a Federal agency.
    Here is the ``but.'' But unfortunately, officials in place 
at the White House and at the EPA have already set the agenda 
before he even achieves the office. These decisions were made 
before Mr. Regan, who should be, who will be the Senate 
confirmed probably leader on environmental policy, even before 
he had his nomination hearing, staff was already in place, busy 
implementing what I feel are misguided and unthoughtful 
executive orders.
    It is unclear whether Secretary Regan, if confirmed, would 
have any authority or had the authority to stop the regulatory 
march toward the Green New Deal. Gina McCarthy, EPA 
Administrator during President Obama's administration, is at 
the White House with an all encompassing role as the climate 
czar. Janet McCabe, who led efforts to establish the illegal 
Clean Power Plan, has been nominated to be the Deputy EPA 
Administrator.
    It is unclear whether Secretary Regan wants to set out on a 
different policy course from McCarthy and McCabe that they took 
during the Obama administration.
    I appreciate the commitments that he made to visit West 
Virginia, and we all joked that it sounds like he might be 
visiting the entire country and other energy producing States. 
I embrace that. We were basically ignored in the past 
Administrations.
    But on key policies, he has not committed to a different 
course. He did not rule out a return to the Clean Power Plan or 
something like it. Secretary Regan would not say whether EPA 
would again claim overreaching authority to force States to 
shift electricity generation sources.
    Secretary Regan also did not commit to preserve the 
Navigable Waters Protection Rule. He could not rule out a 
return to the Obama administration's 2015 WOTUS Rule or 
something like it. Without clear commitments to oppose some 
policies that would economically devastate my State, I cannot 
support him.
    I can tell you that he is a good man, as our Chairman said, 
a good family man, really an inspiration, I think, for many 
young people, and a great public servant.
    I hope that if confirmed he will stand up to those who work 
to implement policies that leave behind working families and 
energy producing States like mine. I cannot understate the hurt 
they have felt during the Obama administration's EPA policies.
    At an August 2016 Energy and National Resources Committee 
field hearing in Morgantown, West Virginia, WVU economist Dr. 
John Deskins testified. His quote: ``The deep decline in coal 
production in recent years has had a devastating effect on our 
State's economy.'' He told us in the final year of the Obama 
administration that the loss of energy jobs had created a great 
depression in six southern West Virginia counties, and one of 
those may be the county in which you were born.
    Treasury Secretary Janet Yellen, in her recent confirmation 
hearing, referenced ``the permanent scarring that is associated 
with job loss and unemployment that can harm the economy over 
the longer term.'' We cannot return to a third term of the 
Obama administration policies at the EPA that will lead to job 
loss, economic harm, and more permanent scarring.
    Based on my strong opposition to that policy agenda and the 
staff that is already in place, I will vote no on Secretary 
Regan's nomination and confirmation today. I encourage the 
President not to box his future nominees into a predetermined 
policy agenda that has already been determined by staff that he 
has put in place.
    With that, I yield back to you, Mr. Chairman.
    Senator Carper. Thank you, Madam.
    Senator Inhofe. Mr. Chairman.
    Senator Carper. Yes, please, go ahead.
    Senator Inhofe. A point of inquiry here. We are going to be 
voting, I assume, you have changed the agenda, so it is going 
to be the first thing we are going to do, is going to be voting 
on Mr. Regan.
    Can I make one statement?
    Senator Carper. Yes, please.
    Senator Inhofe. I think the world of Michael Regan, and I 
was going to make a statement, although Senator Capito made 
exactly the statement I was going to make. The problem I have 
is the agenda that he will be following, and I know that he 
will be doing this, is contrary to the things that we believe 
in Oklahoma.
    So while he is unquestionably a qualified individual, I 
think the world of him as an individual, I will be voting 
against him for that reason.
    I have been trying to reach him since 9:30 this morning to 
tell him that and was not able to do that.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks very much.
    It is 10:15 now. I just want to say something if I can. We 
talk a lot about doing things for our planet, addressing 
climate change, clean air, clean water, and doing so in ways 
that create economic opportunity. I just want you to know, 
Senator Capito and I have already begun conversation, along 
with Senator Manchin, about actually doing something real, 
particularly for West Virginia, one of the hardest hit States, 
including my native State, for job creation.
    It is very sad; you go there to see what has happened to 
the economy, in the communities in which my sister and I were 
born and raised.
    It turns out, Charlie Dent, many of you know Charlie Dent, 
Congressman from Pennsylvania, Charlie Dent is now in charge of 
the Aspen Institute, the congressional arm. I talked to him 
yesterday after having talked to Senator Capito about the 
possibility of Aspen Institute hosting maybe a 2 day workshop 
at the University of West Virginia in Morgantown early this 
spring that focuses on what kinds of jobs can be created for 
the people whose jobs have been displaced, who have lost their 
jobs, what can we be doing to make sure that they have good 
jobs to go to, and to really get started on this right out of 
the starting gate. I wanted to share that with all of you.
    OK. We are going to go ahead and do the vote. If others 
would like to be recognized and speak once we have completed 
the vote, I will be happy to recognize you.
    Thank you all for coming. We are going to have a good time 
together in the next couple of years, and we are going to get a 
heck of a lot done. Thank you all.
    I would like to call up Presidential Nomination 78-16, 
Michael Regan of North Carolina to be Administrator of the 
Environmental Protection Agency. I move to approve and report 
the nomination favorably to the Senate.
    Is there a second?
    Senator Cardin. Second.
    Senator Carper. I hear a second.
    The Clerk will call the roll.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. Aye.
    The Clerk. Ms. Ernst.
    Senator Ernst. No.
    The Clerk. Mr. Graham.
    Senator Capito. Aye by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. No.
    The Clerk. Mr. Kelly.
    Senator Kelly. Aye.
    The Clerk. Ms. Lummis.
    Senator Lummis. No.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Padilla.
    Senator Padilla. Aye.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Shelby.
    Senator Capito. Nay by proxy.
    The Clerk. Ms. Stabenow.
    Senator Stabenow. Aye.
    The Clerk. Mr. Sullivan.
    Senator Capito. Aye by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Carper. Aye.
    The Clerk. Mr. Chairman, the yeas are 14, the nays are 6.
    Senator Carper. We have approved by a margin of 14 to 6 the 
nomination of Michael Regan to be Administrator of the 
Environmental Protection Agency, which will be reported to the 
full Senate.
    And I now move to approve the Committee budget resolution, 
and the Committee rules en bloc.
    Is there a second?
    Senator Capito. Second.
    Senator Carper. It has been seconded.
    All in favor say aye.
    [Chorus of ayes.]
    Senator Carper. In the opinion of the Chair, the ayes have 
it. We have approved the Committee's budget resolution and the 
Committee rules, which will be reported favorably to the 
Senate.
    The voting portion of this meeting is concluded, and I am 
now happy to recognize any member who wishes to make a 
statement on the nomination of Michael Regan or the Committee 
resolutions that we have just approved.
    Thank you all for joining us this morning.
    Would anyone like to be recognized?
    Senator Whitehouse. Mr. Chairman.
    Senator Carper. Yes, please, Senator Whitehouse.
    Senator Whitehouse. I hadn't planned to say anything but 
when I heard the comments this morning, I just want to 
emphasize that if you are talking about permanent scarring, 
what we are doing to this planet with carbon emissions portends 
permanent scarring of our oceans, permanent scarring of the 
fisheries that Rhode Islanders depend on, permanent scarring of 
our very coastline. We are looking at having to redraw the map 
of Rhode Island because we are blocked in Congress from 
handling this problem.
    The permanent scarring of our atmosphere has been 
chronicled in a recent, really good, actually, article in the 
Atlantic Magazine, going back through the geologic and 
anthropologic record of what it was like on this planet when we 
were hitting the benchmarks we are either at or will hit for 
carbon dioxide concentration in the years ahead.
    If you want to talk about economic harm, read Freddie Mac's 
report about coastal property value crash. That is not a green 
organization. Read, what it is now, 40 central banks, all of 
whom have warned of systemic harm which is global economic harm 
from carbon harm and related misinvestment.
    The Fed, even under the Trump administration, a couple of 
the local Feds wrote similar reports. The warnings of economic 
harm, really grievous economic harm, are loud and clear.
    If you want to know what it feels like to not be listened 
to, try being a Democrat in the Trump administration.
    So I feel the pain on the other side, and we will try, I 
promise you, to do a much better job of listening to you and 
solving local economic pain than the Trump administration and 
you did for the past 4 years to us.
    Senator Capito. Mr. Chairman.
    Senator Carper. Senator Capito.
    Senator Capito. Yes, I think I appreciate the comments from 
my friend, Senator Whitehouse. I think if you look what we did 
during the Trump administration on our 45Q where we worked 
together, where we found an environment and an economic win in 
terms of CCUS for coal, I think those are examples of where you 
are creating jobs and getting an environmental outcome at the 
same time.
    I know that you are familiar with my home State of West 
Virginia, because we have talked about that. I think that the 
permanent scarring of poverty, drug abuse, joblessness, 
depression, hopelessness, cannot be forgotten as it was during 
the--I think I have a good leg to stand on in this, because I 
live there, have seen it.
    Senator Whitehouse. I appreciate that.
    Senator Capito. We have not recovered from it.
    So we are not in denial here. We are not saying, don't move 
forward with things of cleaning the air and cleaning the water 
and helping your particular State, which understandably right 
at the tip there is going to feel it first and the hardest, as 
our friends in Alaska, Senators Murkowski and Sullivan talk 
about quite passionately.
    So let's work together on this. Let's not--I will make a 
deal with you. I will make a deal with you. If I erase one 
painful comment from the Obama administration, you can erase 
one painful comment from the Trump administration, and we will 
be on at least a little more united in what I think we do have 
shared goals. So thank you.
    Senator Whitehouse. I appreciate that. I look forward to 
working with the Ranking Member on this. I know her sincerity, 
and we get along personally well.
    I appreciate all of those things. Let's just work to 
support each other's concerns.
    Senator Capito. Yes.
    Senator Carper. We are going to need a lot of erasers.
    Anyone else? Any of our new members?
    Senator Kelly. Yes, Mr. Chairman.
    Senator Carper. Senator Kelly.
    Senator Kelly. Thank you. I am glad to be joining the 
Committee. I look forward to working with you, Ranking Member 
Capito, and the rest of my colleagues on the Committee in the 
coming months and years.
    Arizona is a State defined by its natural beauty. 
Protecting the environment is critical to our economy and to 
our way of life. Arizonans are counting on Congress to pass a 
long term Surface Transportation Bill to protect our scarce 
water resources and support investments in good paying, 
renewable energy jobs of the future. I am eager to work on all 
of these issues as a member of the Environment and Public Works 
Committee.
    I also want to say a brief word about Michael Regan, whose 
nomination I supported just now. After listening to his 
testimony before the Committee last week, and reviewing his 
responses to questions that I submitted for the record, I 
believe Mr. Regan is well qualified and will make decisions in 
a transparent manner, based on the science and in accordance 
with the law and the mission of the EPA. I look forward to 
working with Mr. Regan to ensure that EPA regulations take into 
account Arizona's unique climate and geography.
    Too often, EPA regulations have taken a one size fits all 
approach, which doesn't work for the State of Arizona. From 
defining dry washes and riverbeds as navigable waters to 
attempting to regulate naturally occurring dust storms as 
particulate pollution, Arizonans understand the effects of a 
poorly targeted environmental regulation.
    Yet the past few years have demonstrated that an absent EPA 
can create just as much confusion and place vulnerable 
communities at risk. That is why I appreciate Mr. Regan's 
willingness to work with me to clean up the more than 500 
abandoned uranium mines on the Navajo Nation, and help improve 
water and wastewater infrastructure in Arizona's border 
communities.
    There is a lot of work to be done to responsibly protect 
Arizona's environment. I look forward to working with Mr. Regan 
to do just that.
    Thank you, Mr. Chairman, and I yield back.
    Senator Carper. Thank you, Senator Kelly. We are delighted 
you are on this Committee. You can never have too many Navy 
guys on a committee to focus on issues like these. Welcome 
aboard.
    Senator Kelly. Thank you.
    Senator Carper. Senator Capito, anything else?
    Senator Capito. No.
    Senator Carper. All right. If there is no one else who 
would like to make a comment at this time, I would ask 
unanimous consent that the staff have authority to make 
technical and conforming changes to each of the matters 
approved today.
    I want to thank everyone for their participation in our 
business meeting. I especially want to thank the Ranking 
Member, Senator Capito, and her staff, and our staff, for 
helping make this possible.
    This meeting is adjourned. Thank you.
    [Whereupon, at 10:27 a.m., the meeting was adjourned.]
    [The referenced legislation follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                       [all]
</pre></body></html>
